                                   Report Template Version = 01-13-05




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    DETERMINING IF 

CHILDREN CLASSIFIED AS 

   SCHIP MEDICAID 

   EXPANSION MEET 

 ELIGIBILITY CRITERIA 





                    Daniel R. Levinson

                    Inspector General 


                      October 2005

                     OEI-07-03-00221

                                                                Report Template Version = 01-13-05




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                         Report Template Version = 01-13-05




Δ   E X E C U T I V E                                    S U M M A R Y       



                  OBJECTIVE
                  To determine if children classified as Medicaid expansion meet State
                  Medicaid-expansion eligibility criteria.


                  BACKGROUND
                  The Balanced Budget Act of 1997, Public Law 105-33, established the
                  State Children’s Health Insurance Program (SCHIP) under Title XXI of
                  the Social Security Act (the Act). Under the Act, States can design a
                  separate SCHIP, expand their existing Medicaid program, or do both.
                  Benefits offered to children eligible under Medicaid-expansion criteria
                  must be the same as those offered to children eligible under traditional
                  Medicaid. Typically, States classify children determined eligible under
                  Medicaid-expansion criteria as Medicaid expansion within their
                  electronic data systems to distinguish them from traditional Medicaid
                  and help ensure that these States seek the appropriate Federal match
                  rate. To encourage States to expand child health insurance eligibility,
                  the Federal match rate for States’ SCHIP expenditures, including
                  Medicaid expansion, is greater than the rate for traditional Medicaid.

                  For a simple random sample of 357 cases from 29 of the 30 States that
                  expanded their Medicaid program as of January 1, 2003, we reviewed
                  case-file documentation according to each State’s Medicaid-expansion
                  criteria to determine if the children met the Medicaid-expansion
                  eligibility criteria.


                  FINDINGS
                  Approximately 7 percent of sampled children did not meet States’
                  eligibility criteria.
                  Of the 357 sampled children classified as Medicaid expansion, 24 did
                  not meet the States’ Medicaid-expansion eligibility criteria. For
                  21 sampled children, their families’ countable income was too low for
                  Medicaid expansion, suggesting that States may be improperly
                  receiving the enhanced Federal match rate. For three sampled children,
                  their families’ countable incomes exceeded eligibility requirements for
                  the States in which they resided. These children were not eligible for
                  Medicaid (traditional or expansion); therefore, no Federal
                  reimbursement should have been claimed for them. Those States that
                  were able to identify the causes of the errors attributed them to
                  caseworker mistakes and automated eligibility system failures. Given

OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                              i
                                                                   Report Template Version = 01-13-05




E X E C U T I V E                        S U           M M A R Y


                   the nature of a simple random sample, some States with
                   Medicaid-expansion programs had few or no cases selected. It is
                   possible that these States have vulnerabilities similar to those
                   identified in the States with more cases selected.
                   For 10 percent of sampled children, States could not support their
                   Medicaid-expansion eligibility determinations.
                   States could not locate the case files to provide documentation to
                   support eligibility determinations for 6 of the 357 sampled children. For
                   30 children in our sample, eligibility determinations could not be
                   supported because case files lacked documentation of a timely
                   redetermination, as required.
                   Case files for 24 percent of sampled children contained income
                   calculations that exhibited vulnerabilities.
                   Documentation from 34 case files indicated that caseworkers varied
                   from State guidelines in their use of multiplication methods, income
                   disregards, and rounding. For 36 case files, the caseworkers’
                   calculations were not documented, and we could not determine why our
                   countable incomes, which were based on calculations that followed State
                   guidelines, differed from those of the caseworkers. Thirteen case files
                   indicated that caseworkers did not include all documented income or did
                   not use the most recent or representative income available in their
                   calculations. Finally, we could not duplicate the caseworkers’
                   calculations in three case files, even though those calculations were
                   documented. Although the vulnerabilities identified did not result in
                   incorrect eligibility determinations for these 86 children, such
                   vulnerabilities could potentially lead to errors in future determinations.
                   A few States had difficulty identifying their Medicaid-expansion
                   populations, raising concerns about whether States claim the
                   appropriate Federal match rate for some children.
                   State officials from Michigan responded to our request for their
                   Medicaid-expansion population by stating that they were unable to
                   provide the information because unique identifiers were not assigned to
                   children eligible under Medicaid-expansion criteria in their State.
                   Additionally, South Carolina’s Medicaid-expansion population included
                   children the State correctly determined eligible for traditional Medicaid,
                   but were classified as Medicaid expansion. The inability of Michigan
                   and South Carolina to accurately identify children eligible under
                   Medicaid-expansion criteria could result in these States inappropriately


 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                      ii
                                                                   Report Template Version = 01-13-05




E X E C U T I V E                        S U           M M A R Y


                   seeking the enhanced Federal match rate. Due to various reasons,
                   Oklahoma, Maryland, and Ohio included in their Medicaid-expansion
                   populations children who were accurately classified as traditional
                   Medicaid.


                   RECOMMENDATIONS
                   States may improperly receive the enhanced Federal match rate when
                   children whose family income is below the Medicaid-expansion
                   eligibility criteria are classified as Medicaid expansion. States may
                   improperly receive Federal reimbursement when children whose family
                   income is above Medicaid-expansion eligibility criteria are classified as
                   Medicaid expansion. Additionally, some States’ inability to locate cases,
                   the lack of evidence of required redeterminations, and vulnerabilities
                   created by caseworkers’ inconsistent application of State guidelines
                   could lead to additional errors and cause concern. The inability of
                   States to accurately identify their Medicaid-expansion populations could
                   result in States improperly seeking an enhanced Federal match rate.

                   We recommend that the Centers for Medicare & Medicaid Services:
                   o 	 Work with States to improve caseworker performance in making
                           eligibility determinations, thereby preventing errors due to
                           caseworker mistakes. A possible method to pursue this goal is
                           encouraging States to review and take appropriate action relating
                           to their initial and ongoing caseworker training programs and
                           their quality control practices.
                   o 	 Work with States to ensure that automated eligibility systems
                           accurately classify children determined eligible under
                           Medicaid-expansion criteria. A possible method to pursue this
                           goal is providing technical assistance and guidance to States in
                           developing and implementing their automated eligibility systems.
                   o 	 Ensure that State Medicaid programs conduct redeterminations of
                           Medicaid-expansion eligibility, as required.
                   o 	 Remind States of the requirement to properly maintain case-file
                           documentation.
                   o 	 Ensure that all States can accurately identify children determined
                           eligible based on Medicaid-expansion criteria.




 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                     iii
                                                                     Report Template Version = 01-13-05




E X E C U T I V E                        S U           M M A R Y 




                   AGENCY COMMENTS
                   In its comments to the report, CMS noted that screen and enroll
                   requirements do not apply to Medicaid and SCHIP Medicaid-expansion
                   programs. CMS stated the real issue is whether States are claiming the
                   correct Federal financial participation rate.

                   However, CMS concurred with our recommendations and provided steps
                   it has taken or is taking in response to those recommendations. CMS
                   notes that it is committed to continuous improvement of its technical
                   assistance and program integrity efforts. Some of its actions are
                   intended to address all of OIG’s concerns, while other actions address
                   specific findings and recommendations. CMS will use the monthly
                   Associate Regional Administrators conference call, the Eligibility
                   Technical Advisory Group conference call, National Eligibility
                   Conference, and the 2005 annual meeting of the American Public
                   Human Services Association-Information System Management to bring
                   attention to the issues addressed in this report.

                   CMS also described efforts it has taken to work with two States
                   (Michigan and South Carolina) that had trouble identifying their
                   Medicaid-expansion populations in response to an OIG data request.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   According to screen and enroll requirements for separate SCHIP, before
                   enrolling a child in separate SCHIP, the State must first determine if
                   that child is eligible for Medicaid. Only after determining that a child is
                   not eligible for Medicaid will a State determine if the child is eligible for
                   separate SCHIP. OIG agrees that screen and enroll requirements do
                   not apply to Medicaid-expansion eligibility determinations. However, it
                   is still important to ensure that Medicaid-expansion eligibility
                   determinations are made accurately, and that children determined
                   eligible are classified correctly. If a child is classified as Medicaid
                   expansion, it is reasonable to assume that the State could claim the
                   enhanced match for that child. Approximately 7 percent of sampled
                   children did not meet eligibility criteria, meaning that States may have
                   claimed an improper Federal match for these children. However, the
                   issue of whether States actually sought and/or received the enhanced
                   reimbursement rate for those children classified as Medicaid-expansion
                   was outside the scope of this study.




 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                        iv
                                                                   Report Template Version = 01-13-05




E X E C U T I V E                        S U           M M A R Y


                   CMS also commented that an OIG study with state sample sizes that
                   would allow state-specific error rates would be helpful in their efforts to
                   more accurately identify the causes of errors in specific States. OIG will
                   take this request under advisement as a course for future work that
                   could be pursued.




 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                      v
                                                                                   Report Template Version = 01-13-05




Δ   T A B L E             O F            C O N T E N T S                                





         E X E C U T I V E S U M M A R Y .......................................................................... i



         I N T R O D U C T I O N ......................................................................................... 1 




         F I N D I N G S ..................................................................................................... 9 

                    Identified errors................................................................................... 9 


                    Unsupported eligibility determinations ........................................... 10 


                    Eligibility determination vulnerabilities.......................................... 11 


                    Identification of States’ Medicaid-expansion populations ............... 13 



         R E C O M M E N D A T I O N S ............................................................................ 15 




         A P P E N D I X E S ............................................................................................ 17 

                    A: 	States’ Verification and Quality Assurance Practices................ 17 


                    B: 	Medicaid-Expansion Universe and Sample ................................ 19 


                    C: 	Worksheets Used in Case Review ............................................... 20 


                    D: 	Children With Family Income Below States’ Eligibility 

                        Criteria for Medicaid Expansion .................................................... 22


                    E: 	Children With Family Income Above States’ Eligibility 

                        Criteria for Medicaid Expansion ................................................. 25 


                    F: Agency Comments ........................................................................ 26 



         A C K N O W L E D G M E N T S ........................................................................... 30 

                                                                           Report Template Version = 01-13-05




Δ   I N T R O D U C T I O N                                    



                  OBJECTIVE
                  To determine if children classified as Medicaid expansion meet State
                  Medicaid-expansion eligibility criteria.


                  BACKGROUND
                  The Balanced Budget Act of 1997 (BBA), Public Law 105-33, established
                  the State Children’s Health Insurance Program (SCHIP) under
                  Title XXI of the Social Security Act (the Act). Congress appropriated
                  nearly $40 billion over 10 years to help States expand health insurance
                  to children whose families earn too much to qualify for Medicaid, yet not
                  enough to afford private health insurance. The SCHIP is designed to
                  help reduce the number of uninsured low-income children by providing
                  them with health care coverage. To cover uninsured children under
                  Title XXI, States can design a separate SCHIP, expand their existing
                  Medicaid program, or do both. Section 4911 of the BBA amended the
                  Medicaid statute to create a new optional eligibility category to cover
                  targeted low-income children for those States desiring to expand their
                  Medicaid coverage.1
                  Medicaid, which was established in 1965 by Title XIX of the Act, is the
                  largest program providing health care services to America’s poorest
                  people. Within broad national guidelines set by the Federal
                  Government, the Act enables States to furnish medical assistance to
                  those who meet eligibility requirements. Each State administers its
                  own Medicaid program, sets its own eligibility standards, determines
                  the type, amount, duration and scope of services, and sets payment
                  rates.

                  By law, Title XXI Medicaid expansion (hereinafter referred to as
                  Medicaid expansion) is subject to all the requirements of Title XIX
                  Medicaid (hereinafter referred to as traditional Medicaid), but raises the
                  income-eligibility thresholds to include more children. Medicaid
                  expansion is administered and operated within a State’s traditional
                  Medicaid program and must comply with traditional Medicaid
                  requirements for comparability and statewideness. The benefits are the
                  same regardless of the eligibility criteria (Medicaid expansion or

                  1 Optional targeted low-income children are defined in section 2110 of the BBA. The

                    eligibility category for these children is established by 42 U.S.C.
                    § 1396a(a)(10)(A)(ii)(XIV).



OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                               1
                                                                         Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    traditional Medicaid) under which the child enters the program. For
                    the purpose of this report, we described children as being eligible for
                    Medicaid expansion to clarify for the reader that the children are
                    enrolled in Medicaid based on the expanded criteria.

                    This inspection addresses the 30 States that expanded their traditional
                    Medicaid program as of January 1, 2003. Thirteen of these States only
                    expanded their traditional Medicaid program, and 17 States expanded
                    their traditional Medicaid program and also administered a separate
                    SCHIP.
                    Enhanced Federal Match Rates and Congressional Interest
                    To encourage States to expand child health insurance eligibility, the
                    Federal match rate for States’ Medicaid-expansion expenditures is
                    greater than the match rate for traditional Medicaid.2 The average
                    match rate for Medicaid expansion is 72 percent, while the average rate
                    for traditional Medicaid is 60 percent.3 This could create a financial
                    incentive for States to determine children eligible under the
                    Medicaid-expansion criteria.

                    The Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act
                    of 1999 mandates that the Office of Inspector General (OIG) sample
                    States administering separate SCHIPs every 3 years to determine the
                    number of SCHIP enrollees, if any, who are eligible for Medicaid. In
                    February 2001, OIG released the first mandated report on separate
                    SCHIPs entitled “Ensuring Medicaid-eligibles are not Enrolled in
                    SCHIP,” OEI-05-00-00241. We identified only 9 enrollment errors in a
                    sample of 500 children. In 2004, we completed a second study of
                    separate SCHIPs (“Determining if Children Enrolled in Separate
                    SCHIPs were Eligible for Medicaid,” OEI-07-03-00220). Again, we
                    found few errors, only 5 in a sample of 386.

                    After completion of the 2001 study, our discussions with Congress
                    indicated an interest in collecting similar information for States that
                    expanded their traditional Medicaid programs. Therefore, we conducted
                    this study, in addition to the mandated study addressing separate
                    SCHIPs.




                    2 42 CFR § 433.11(a)(1).
                    3 Federal Register, December 3, 2003. Retrieved August 16, 2005, from
                      http://www.aspe.hhs.gov/health/fmap05.htm.



 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                           2
                                                                                 Report Template Version = 01-13-05




   I N T R O D          U C T             I O N


                         Determining Children’s Eligibility for Medicaid Expansion
                         States’ Medicaid-expansion criteria are broadly based on factors such as
                         household composition,4 the family’s countable income, and the child’s
                         age.5 The lower income limit for Medicaid expansion, as a percentage of
                         the Federal Poverty Level (FPL),6 is essentially the upper income limit
                         for traditional Medicaid. Medicaid expansion also has an upper income
                         limit, as a percentage of the FPL, which a family’s income cannot
                         exceed.7 The upper and lower income limits for Medicaid expansion
                         vary by State. See Figure 1 for an example of one State’s income
                         eligibility guidelines.

Figure 1: Example of State Eligibility Guidelines


                                                           Exceeds Eligibility
   185% FPL


   150% FPL                                                            Medicaid-expansion
                                                                           Eligibility
  133% FPL


   100% FPL

                          Medicaid Eligibility

              child's
              age       1 year                               6 years                                     19 years

                         To determine a family’s countable income, States first determine the
                         family’s gross income. Each State establishes its own procedure for
                         calculating gross income. States generally take either an actual or
                         averaged weekly gross income amount and multiply by 4 or 4.3, or an
                         actual or averaged bi-weekly amount and multiply by 2 or 2.15 to
                         calculate gross monthly income. Then, the appropriate income


                         4 Within parameters set by the Aid to Families with Dependent Children and Medicaid law
                           and regulations, each State sets its own rules for deciding which members of the
                           household to include in determining a child’s eligibility.
                         5 42 CFR § 435.522.
                         6 The FPL is a set of income guidelines used for determining whether a person or family is
                            financially eligible for assistance or services under a particular Federal program. The
                            FPL is published yearly in the Federal Register.
                         7 BBA § 2110(b)(4).




      OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                                   3
                                                                 Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    disregards are subtracted from the family’s gross income to arrive at the
                    family’s countable income. At the time of our review, most States
                    permitted monthly income disregards of $90 for each working parent,
                    $50 for child support payments received, and a deduction of $175 to
                    $200 for childcare expenses.

                    The family’s countable income and the household composition are then
                    used to determine what percentage of the FPL the family’s countable
                    income represents. If the family’s countable income falls within the
                    Medicaid-expansion eligibility range that the State established for the
                    child’s age group, the child is determined to be income-eligible for
                    Medicaid expansion.
                    Redeterminations
                    Federal regulations require that States redetermine an enrolled child’s
                    eligibility at least every 12 months.8 In general, to redetermine a child’s
                    eligibility, the State collects information on the family’s income, the
                    child’s age, the household composition, and any other factors that affect
                    a child’s eligibility for Medicaid expansion. The State considers all this
                    information to determine whether or not a child continues to meet the
                    eligibility requirements for Medicaid expansion. Based on the results of
                    the redetermination, the child (1) continues to be eligible under
                    Medicaid-expansion criteria; (2) is determined to be eligible under
                    traditional Medicaid criteria; (3) is moved to the separate SCHIP; or
                    (4) is disenrolled.
                    Documentation Requirements
                    Federal regulations require States to include facts to support the
                    eligibility determination in each applicant’s record.9 States determine
                    the documentation that they require from families who apply and the
                    processes they use to verify information. (See Appendix A for a listing
                    of the States’ verification and quality assurance practices.) Some of the
                    documentation commonly found in case files includes the following:
                    o 	 application for medical assistance;

                    o 	 copies of pay stubs or tax forms;

                    o 	 proof of other income, such as Social Security or unemployment
                            benefits;


                    8 42 CFR § 435.916(a). 

                    9 42 CFR § 435.913(a). 





 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                   4
                                                                           Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    o 	 dependent care expenses;

                    o 	 caseworker notes;

                    o 	 calculation sheets which detail how gross and countable income
                            were calculated by the State; and
                    o 	 the family’s countable income used, and the corresponding FPL
                            percentage.


                    SCOPE
                    This study covers those States that expanded their Medicaid program as
                    of January 1, 2003. For a simple random sample of children classified
                    as Medicaid-expansion as of June 1, 2003, we evaluated whether each
                    child met the criteria for Medicaid expansion based on age, family
                    countable income, and household composition. This study focused on
                    children determined eligible for Medicaid expansion; therefore, we
                    excluded eligible adults and unborn children from our review.

                    Although States are allowed to claim the higher Federal match for
                    children found eligible under Medicaid-expansion criteria, we did not
                    evaluate the rate at which States actually sought and/or received
                    reimbursement for those children.


                    METHODOLOGY
                    Sample Selection
                    From each of the 30 States that expanded their Medicaid program, we
                    requested the population of children classified as Medicaid expansion as
                    of June 1, 2003. We received information from 29 States10 and
                    aggregated the State populations into a single universe of
                    approximately 928,000. (See Appendix B.) From this universe, we
                    selected a simple random sample of 400 cases for review. Due to their
                    relatively small Medicaid-expansion populations, Minnesota, New
                    Hampshire, New Jersey, and North Dakota did not have any cases
                    selected as part of our sample.




                    10 Michigan SCHIP officials reported that they were unable to provide the information
                       requested because unique identifiers were not assigned to children eligible for Medicaid
                       expansion in their State. Michigan was, therefore, dropped from the universe. Michigan
                       will be discussed in greater detail later in the report.



 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                                5
                                                                 Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    Sample Adjustments
                    A total of 43 children were dropped from our sample because they did
                    not fit our criteria. One of these children was ineligible for traditional
                    Medicaid because of his immigration status, and therefore was enrolled
                    in Medicaid expansion through a State-subsidized eligibility category
                    for which the State did not receive Federal funding. A second child was
                    dropped from the sample because his mother had applied for benefits for
                    him before his birth, and we excluded unborn children from our
                    Medicaid-expansion universe. A third child was found ineligible for
                    Medicaid expansion by the State immediately prior to our review period,
                    but had not yet been removed from the Medicaid-expansion rolls on the
                    date that the State produced their population data. Ten children were
                    dropped because they were enrolled in a State’s separate SCHIP and
                    not in Medicaid expansion. The remaining 30 children were mistakenly
                    included in the Medicaid-expansion population data, and these cases
                    will be discussed later in the report. These adjustments reduced the
                    total number of cases we reviewed to 357. The findings in this report
                    are based on the sample of 357 children.
                    Data Collection
                    For each sampled child, we requested documentation consisting of the
                    medical assistance application or the most recent redetermination
                    information, supporting income documentation (if required), calculation
                    sheets States used to calculate income, and any notes indicating family
                    circumstances or explaining how eligibility was determined.

                    From each State, we collected information on the State’s eligibility
                    criteria for Medicaid-expansion, which included, but was not limited to,
                    requirements for proof of income, age requirements, and FPL limits.

                    We analyzed the following elements of each case in accordance with
                    each State’s eligibility criteria for Medicaid-expansion:
                    o 	 date of application or redetermination;

                    o 	 age of the child at the time of the eligibility determination;

                    o 	 household composition (or number of people in the family);

                    o 	 documentation used to support family income, which could include
                            pay stubs, tax forms, or income information from State databases;
                    o 	 family’s gross income prior to any income disregards;




 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                   6
                                                                          Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    o 	 family’s countable income after any income disregards (calculated
                            by OIG based on the case-file documentation, as well as the
                            caseworker’s calculation, when this figure was available); and
                    o 	 the FPL percentage represented by the family’s countable income
                            (calculated by OIG based on case-file documentation, as well as
                            the caseworker’s calculation, when this figure was available).11
                    When the household composition, age, countable family income, and
                    FPL were within State Medicaid-expansion criteria, we determined
                    children to be income-eligible for Medicaid expansion. When it
                    appeared that these factors were not within State Medicaid-expansion
                    criteria, we contacted the State to provide them an opportunity to
                    support the eligibility determination. The States in turn either:
                    (1) provided additional information that we accepted as support for
                    Medicaid-expansion eligibility; (2) confirmed that an error had been
                    made; (3) provided information that still did not support their
                    determination; or (4) were unable to provide documentation to support
                    the eligibility determination. An example of the worksheets we created
                    and used in reviewing each case is found in Appendix C.
                    Medicaid-Expansion Officials
                    We gathered background information, such as how each program is
                    administered, who determines eligibility, how States ensure correct
                    eligibility determinations, and unique programmatic features within
                    each State, from Medicaid-expansion directors and administrators for
                    the 30 States with Medicaid-expansion programs. We also obtained
                    each State’s eligibility criteria and a description of its eligibility
                    determination process.
                    Onsite Visits
                    We conducted onsite visits with eligibility staff in California, Louisiana,
                    New York, and Ohio. While onsite, we had caseworkers demonstrate
                    the process of making an eligibility determination, reviewed both paper
                    processes and automated eligibility systems, and observed what
                    procedures were in place to ensure correct eligibility determinations.




                    11 OIG FPL percentage calculations were based on the date of application. The FPL
                       guidelines for 2003 were effective on February 7, 2003. Therefore, in reviewing
                       applications dated prior to March 1, 2003, we used 2002 FPL guidelines. For applications
                       dated on or after March 1, 2003, we used 2003 FPL guidelines.



 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                               7
                                                                 Report Template Version = 01-13-05




I N T R O D        U C T             I O N


                    Limitations
                    Although we drew a simple random sample, we did not project our
                    findings in this report to the entire Medicaid-expansion population,
                    because of problems identified with the population data. Specifically,
                    Maryland, Ohio, Oklahoma, and South Carolina provided us Medicaid-
                    expansion populations that we later discovered included children who
                    were actually enrolled in traditional Medicaid. Also, the Medicaid-
                    expansion populations provided by Kentucky and New Jersey were
                    revised based on information that was received after the sample was
                    selected.
                    Standards
                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-07-03-00221    S C H I P M E D I C A I D E X PA N S I O N                                   8
                                                                      Report Template Version = 01-13-05




 Δ        F I N D I N G S

                                                              Out of 357 randomly sampled
Approximately 7 percent of sampled children did
                                                              children, 24 children (7 percent) did
              not meet States’ eligibility criteria
                                                              not meet the eligibility criteria for
                        Medicaid expansion in their States. For 21 of these children, their
                        families’ countable income was too low for Medicaid expansion. States
                        indicated that errors for eight children were caused by caseworkers
                        making incorrect calculations or data entry errors, or failing to collect
                        updated income information. For three children, States reported that
                        the children had been determined eligible under their Medicaid-
                        expansion criteria, but they were not able to provide documentation to
                        support those determinations in response to our request for
                        clarification. Errors for two children resulted when the automated
                        eligibility system a State used applied incorrect codes to the cases. For
                        the final eight children, States did not provide any explanation of how
                        the errors occurred.

                        The following three examples illustrate some of the types of errors we
                        identified. Appendix D provides a summary of all 21 errors.
                        o 	 The caseworker incorrectly included a stepfather and his income
                                in the eligibility determination. According to State program
                                guidelines, the stepfather should not have been included in the
                                family for the purpose of determining the child’s eligibility.
                        o 	 The caseworker used an incorrect income input screen when
                                entering this child’s case into the State’s automated eligibility
                                system, resulting in the child being assigned a code that indicated
                                eligibility based on Medicaid-expansion criteria.
                        o 	 The caseworker did not record the family’s income correctly in the
                                State’s automated eligibility system, resulting in the system
                                assigning a code to the child indicating eligibility based on
                                Medicaid-expansion criteria.
                        Three sampled children were ineligible for Medicaid expansion because the
                        families’ incomes exceeded eligibility limits.
                        Medicaid-expansion eligibility has an upper income limit, expressed as a
                        percentage of FPL, which a family’s income cannot exceed. If a family’s
                        countable income is in excess of the maximum income limit for Medicaid
                        expansion in their State, the child is ineligible for Medicaid expansion.
                        We identified three children whose families’ countable incomes exceeded
                        the maximum income limits for their States. These children were not
                        eligible for Medicaid (traditional or expansion); therefore, the States
                        should not seek any Federal reimbursement for them.

      OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                    9
                                                                   Report Template Version = 01-13-05




F   I N D I N G        S


                      One of these three errors was caused by the caseworker making an
                      incorrect calculation. One error was the result of a problem in the
                      State’s automated eligibility system, which caused an incorrect code to
                      be assigned. And for one case, the State did not acknowledge the reason
                      for the error, nor did it provide documentation to support the eligibility
                      determination. Appendix E contains descriptions of these cases.
                      Two sampled children met the criteria for their States’ separate SCHIP
                      programs.
                      We identified two children who were ineligible for Medicaid expansion,
                      but did meet the criteria for their States’ Title XXI separate SCHIP
                      programs. Therefore, the enhanced Federal match rate for these two
                      children is appropriate, although they were enrolled in the incorrect
                      programs.

                                                              Federal regulation 42 CFR
     For 10 percent of sampled children, States
                                                              § 435.913(a) requires States to
    could not support their Medicaid-expansion
                                                              include in each applicant’s case
                       eligibility determinations             record facts to support the
                      determination of eligibility, and 42 CFR § 435.916(a) requires that
                      States redetermine each enrolled child’s eligibility at least every
                      12 months. However, for 36 children in our sample, States either could
                      not locate the case file to provide us documentation or case files lacked
                      documentation of a timely redetermination.
                      States could not locate almost 2 percent of case files for sampled children.
                      Despite repeated requests for the information, States could not locate
                      six of the case files for children in our sample. Due to the lack of case
                      files or any other information to support eligibility, we were unable to
                      make any determination regarding these children’s eligibility.
                      States could not provide evidence for approximately 8 percent of sampled
                      children to establish whether required redeterminations had been performed
                      timely.
                      For 30 children, States could not provide evidence that annual eligibility
                      redeterminations had been performed timely. Although Federal
                      Medicaid regulations require redeterminations every 12 months,12 the
                      last determinations for these cases occurred between 13 months and
                      58 months prior to our review in June 2003. Due to the lack of recent



                      12 42 CFR § 435.916(a).




    OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  10
                                                                         Report Template Version = 01-13-05




      F   I N D I N G        S


                            determinations, we were unable to determine whether these children
                            were eligible for Medicaid expansion.

                                                         We identified income calculations for
Case files for 24 percent of sampled children            86 children that exhibited vulnerabilities.
contained income calculations that exhibited             The identified vulnerabilities did not result
                               vulnerabilities           in the children being ineligible for Medicaid
                                                         expansion, and therefore we agreed with
                            the States that these children should be classified as Medicaid
                            expansion. However, if not addressed, these vulnerabilities suggest the
                            potential that some children, especially those whose families’ countable
                            income is close to the upper or lower income limits, could be incorrectly
                            determined eligible under Medicaid-expansion criteria.

                            For 34 children, the caseworkers did not follow State guidelines in
                            applying multiplication methods, income disregards, rounding, and
                            family income to income calculations. For example, the caseworker for
                            one child multiplied the family’s average weekly income by 2.16 rather
                            than 4.333, as State guidelines required, resulting in an omission of
                            $569.74 in countable income. In another example, the caseworker
                            allowed two earned income disregards of $120 each, although the family
                            should have only received one. This resulted in the family’s countable
                            income being $120 less than it should have been. For 15 children,
                            caseworkers rounded income amounts in ways inconsistent with State
                            guidelines, resulting in the omission or inclusion of up to $4 in
                            countable income. Although this amount may not seem significant, in
                            instances where family income is near the income limits for Medicaid
                            expansion, even small errors can result in a child being incorrectly
                            determined eligible under Medicaid-expansion criteria. Lastly, one
                            caseworker calculated the family’s countable income using net income
                            figures, rather than gross income, resulting in the omission of $59.79 in
                            countable income.

                            For another 36 children, the caseworkers’ calculations were not
                            documented. Therefore, we could not determine why our calculations of
                            countable income, which were based on State guidelines, differed from
                            the caseworkers’ calculations.

                            For 13 children, caseworkers did not include all documented income or
                            did not use the most recent or representative income information
                            available in their calculations. As a result, the countable incomes we
                            calculated differed from the amounts the State reported.



          OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  11
                                                                                             Report Template Version = 01-13-05




F   I N D I N G        S


                      For the remaining three children, we could not duplicate the
                      caseworkers’ calculations, although those calculations were
                      documented. For example, the caseworker’s notes for one child
                      indicated child support received over 2 months was averaged to arrive
                      at $651.47. However, when we made the income calculation, the
                      average child support amounts received equaled $936.57 a month,
                      resulting in a difference of $285.10.

                      Table 1 below summarizes the differences between caseworkers’
                      calculations and our calculations, which are based on State guidelines
                      and available documentation. The differences between the 2 countable
                      incomes, as calculated by caseworkers and OIG for these 86 children,
                      ranged from $0.01 to $989.00.

                                                           Table 1: Differences Between Income
                                                              Calculated by State and Income
                                                                     Calculated by OIG
                                                           No. of Cases    Amount of Difference
                                                                23              $.01 - $10.00
                                                                14            $10.01 - $50.00
                                                                11            $50.01 - $100.00
                                                                31           $100.01 - $500.00
                                                                 7           $500.01 - $989.00
                                                             Source: 2004 OIG analysis of case-file information.


                      The potential for error resulting from identified vulnerabilities is greater for
                      children whose families’ incomes are near the income limits for Medicaid
                      expansion.
                      Several of the errors we identified in this report were the result of
                      caseworker mistakes, with incorrect countable income calculations
                      leading to children being incorrectly determined eligible under
                      Medicaid-expansion criteria rather than under traditional Medicaid
                      criteria. For the 86 children discussed above, the caseworker mistakes
                      were not of sufficient magnitude to make the eligibility determinations
                      incorrect, although some could have been if the families’ countable
                      incomes had been closer to the income limit.

                      For 11 percent of the families of sampled children,13 countable income
                      was within 5 percent of the lower income limit for Medicaid expansion
                      (i.e., within 5 percent of the income limit for traditional Medicaid).


                      13 For this calculation, we excluded 30 case files that did not contain recent determinations
                         and 6 missing case files, bringing the total denominator to 321.



    OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                                            12
                                                                                        Report Template Version = 01-13-05




        F   I N D I N G        S


                              Thus, relatively minor income calculation mistakes for families such as
                              these could result in children being incorrectly determined eligible
                              under Medicaid-expansion criteria.

                                                                  State officials from Michigan
        A few States had difficulty identifying their             responded to our request for their
Medicaid-expansion populations, raising concerns                  Medicaid-expansion population by
about whether States claim the appropriate Federal                stating that they were unable to
                     match rate for some children                 provide the information because
                                                                  unique identifiers were not assigned
                              to children eligible for Medicaid expansion in their State. Michigan’s
                              Medicaid expansion covers children ages 16 through 18 who have family
                              income between 100 and 150 percent of the FPL. Michigan reported
                              using a formula to estimate the number of children eligible under
                              Medicaid-expansion criteria by identifying children between the ages of
                              16 and 18 whose families’ countable incomes fall between 100 and
                              150 percent of the FPL. Michigan officials explained that they assume
                              there is an even distribution of children who meet these parameters and
                              indicated that there was no way they would be able to extract this
                              population for us.

                              South Carolina’s Medicaid-expansion population included children the
                              State correctly determined eligible for traditional Medicaid but were
                              classified as Medicaid expansion. South Carolina program officials
                              reported that the mistake resulted from changes they had made in their
                              automated eligibility system. These changes resulted in some children
                              being recorded in their database incorrectly.14 The inability of Michigan
                              and South Carolina to accurately distinguish children eligible for
                              Medicaid expansion from other children could result in these States
                              inappropriately seeking an enhanced Federal match rate.

                              Oklahoma, Maryland, and Ohio did not accurately provide their
                              Medicaid-expansion populations to us, resulting in the selection of
                              30 children who were enrolled in traditional Medicaid in our sample.
                              We discovered these children through our review process and excluded
                              them from our sample. Unlike 21 of the errors identified in this study
                              in which the children were classified as Medicaid expansion but met
                              income-eligibility guidelines for traditional Medicaid, these 30 children
                              were accurately enrolled in traditional Medicaid; however, the States

                              14 Sampled children from South Carolina whose eligibility was determined incorrectly by
                                 the State were included in the first finding of this report as errors.



            OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                                13
                                                                   Report Template Version = 01-13-05




F   I N D I N G        S


                      erred in including them in the Medicaid-expansion populations they
                      provided.

                      When we questioned the States regarding how the children enrolled in
                      traditional Medicaid were included in the Medicaid-expansion
                      populations, State program officials provided various explanations.
                      Oklahoma indicated that, although they understood the request for the
                      population, they made a mistake in preparing the data that resulted in
                      children enrolled in traditional Medicaid being included. Maryland
                      misinterpreted our request for the population, and thus included
                      children from all of their medical assistance programs. Ohio did not
                      respond to our repeated requests for an explanation of how this
                      occurred.




    OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  14
                                                                   Report Template Version = 01-13-05




Δ   R E C O M M E N D A T I O N S                              





                  States may improperly receive the enhanced Federal match rate when
                  children whose family income is below the Medicaid-expansion
                  eligibility criteria are classified as Medicaid expansion. States may
                  improperly receive Federal reimbursement when children whose family
                  income is above Medicaid-expansion eligibility criteria are classified as
                  Medicaid expansion. Additionally, some States’ inability to locate cases,
                  the lack of evidence of required redeterminations, and vulnerabilities
                  created by caseworkers’ inconsistent application of State guidelines
                  could lead to additional errors and cause concern. The inability of
                  States to accurately identify their Medicaid-expansion populations could
                  result in States improperly seeking an enhanced Federal match rate.

                  We recommend that the Centers for Medicare & Medicaid Services:
                  o 	 Work with States to improve caseworker performance in making
                          eligibility determinations, thereby preventing errors due to
                          caseworker mistakes. A possible method to pursue this goal is
                          encouraging States to review and take appropriate action relating
                          to their initial and ongoing caseworker training programs and
                          their quality control practices.
                  o 	 Work with States to ensure that automated eligibility systems
                          accurately classify children determined eligible under Medicaid-
                          expansion criteria. A possible method to pursue this goal is
                          providing technical assistance and guidance to States in
                          developing and implementing their automated eligibility systems.
                  o 	 Ensure that State Medicaid programs conduct redeterminations of
                          Medicaid-expansion eligibility, as required.
                  o 	 Remind States of the requirement to properly maintain case-file
                          documentation.
                  o 	 Ensure that all States can accurately identify children determined
                          eligible based on Medicaid-expansion criteria.


                  AGENCY COMMENTS
                  In its comments to the report, CMS noted that screen and enroll
                  requirements do not apply to Medicaid and SCHIP Medicaid-expansion
                  programs. CMS stated the real issue is whether States are claiming the
                  correct Federal financial participation rate.


OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                      15
                                                                       Report Template Version = 01-13-05




R   E C O        M M E N D A T                         I O N       S


                      However, CMS concurred with our recommendations and provided steps
                      it has taken or is taking in response to those recommendations. CMS
                      notes that it is committed to continuous improvement of its technical
                      assistance and program integrity efforts. Some of its actions are
                      intended to address all of OIG’s concerns, while other actions address
                      specific findings and recommendations. CMS will use the monthly
                      Associate Regional Administrators conference call, the Eligibility
                      Technical Advisory Group conference call, National Eligibility
                      Conference, and the 2005 annual meeting of the American Public
                      Human Services Association-Information System Management to bring
                      attention to the issues addressed in this report.

                      CMS also described efforts it has taken to work with two States
                      (Michigan and South Carolina) that had trouble identifying their
                      Medicaid-expansion populations in response to an OIG data request.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      According to screen and enroll requirements for separate SCHIP, before
                      enrolling a child in separate SCHIP, the State must first determine if
                      that child is eligible for Medicaid. Only after determining that a child is
                      not eligible for Medicaid will a State determine if the child is eligible for
                      separate SCHIP. OIG agrees that screen and enroll requirements do
                      not apply to Medicaid-expansion eligibility determinations. However, it
                      is still important to ensure that Medicaid-expansion eligibility
                      determinations are made accurately, and that children determined
                      eligible are classified correctly. If a child is classified as Medicaid
                      expansion, it is reasonable to assume that the State could claim the
                      enhanced match for that child. Approximately 7 percent of sampled
                      children did not meet eligibility criteria, meaning that States may have
                      claimed an improper Federal match for these children. However, the
                      issue of whether States actually sought and/or received the enhanced
                      reimbursement rate for those children classified as Medicaid-expansion
                      was outside the scope of this study.

                      CMS also commented that an OIG study with State sample sizes that
                      would allow State-specific error rates would be helpful in their efforts to
                      more accurately identify the causes of errors in specific States. OIG will
                      take this request under advisement as a course for future work that
                      could be pursued.




    OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                      16
                                                                                                       Report Template Version = 01-13-05




           A G         E N   C Y          C O            M M E N T                  S
          Δ         A AP PP PE EN ND DI IX X ~ ~ A A                                     


                       States’ Verification and Quality Assurance Practices



                                       The following chart illustrates the self-reported information obtained
                                       from structured interviews with States when asked about their
                                       verification and quality assurance practices prior to our case-file review.
                                       We did not identify any relationship between the verification and
                                       quality assurance practices shown in the table and incorrect eligibility
                                       determinations.
     State ID           AK        CA   DC           FL            HI           IA   ID       IL   IN   KY     LA     MA     MD     ME        MI
 Proof of Income         [        [      [            ,            ,            [   ,        [    [     [      ,      [      ,      [        ,
    Required
 Self-Declaration        ,        [      ,            [            [            ,   [        ,    [     ,      ,      [      [      ,        [
     Allowed
 Proof of Other
Eligibility Criteria     ,        [      [            ,            ,            [   [        ,    ,     ,      [      [      ,      ,        [
    Required
     Routine
 Verification of
   Information           [        [      [            ,            [            [   [        [    [     [      [      [      [      [        ,
   Provided by
    Applicants
 Written Policies
for Verification of      [        [      [          NR             [            [   [        [    ,     [      [      [      [      [        ,
    Enrollment
Redetermination
   Information           [        NR     [          NR             [            [   [        [    NR    [      [      [      [      [        ,
Verified Same as
  at Enrollment
     Eligibility
 Determinations
                         [        [      [            [            [            [   [        [    ,     [      [      [      [      [        [
  Reviewed for
     Accuracy
Children Identified
 Through State
   Reviews as            ,        ,    NR             ,            ,          NR    [        ,    NR    [      [      ,      ,      [        ,
    Incorrectly
     Enrolled


      Key
      [    Indicates State’s response was Yes

      ,    Indicates State’s response was No

      NR Indicates State did not respond


                OEI-07-03-00221        S C H I P M E D I C A I D E X PA N S I O N                                                       17
                                                                                                      Report Template Version = 01-13-05




A   P   P E N D         I X ~         A            





     State ID          MN    MO           ND           NE           NH           NJ    NM   NY   OH   OK     RI     SC     SD     VA        WI
 Proof of Income       [         [          [            [            [            [   [    [    [     ,      [      [      [      [        ,
    Required
 Self-Declaration      ,         ,          ,            ,            ,            ,   [    ,    [     [      ,      ,      ,      ,        [
     Allowed
 Proof of Other
Eligibility Criteria   [         [          [            ,            [            [   [    [    [     ,      [      ,      ,      ,        [
    Required
     Routine
 Verification of
   Information         [         [          ,            [            [            [   [    [    [     ,      [      [      [      ,        [
   Provided by
    Applicants
 Written Policies
for Verification of    [         [          [            ,            [            [   [    [    [    NR      [      [      [     NR        [
    Enrollment
Redetermination
   Information      NR           NR       NR           NR           NR             [   [    [    [     [      [      [     NR      [        [
Verified Same as
  at Enrollment
     Eligibility
 Determinations
                     [           [          [            [            [            [   [    [    [     [      [      [      [      [        [
  Reviewed for
     Accuracy
Children Identified
 Through State
   Reviews as        ,           ,          ,            [            ,            [   ,    NR   ,     ,      [      ,      [      ,        ,
    Incorrectly
     Enrolled


        Key
        [   Indicates State’s response was Yes

        ,   Indicates State’s response was No

        NR Indicates State did not respond




               OEI-07-03-00221            S C H I P M E D I C A I D E X PA N S I O N                                                   18
                                                                                  Report Template Version = 01-13-05




Δ   A P P E N D I X                                ~           B

     Medicaid-Expansion Universe and Sample

                  We requested States to provide us information on all children eligible
                  under Medicaid-expansion criteria as of June 1, 2003. The following
                  table shows the number of children provided by each State and the
                  number of children selected in our sample. It is important to note that
                  the data published here reflect the Medicaid-expansion populations as
                  the States provided them. At least four States (Maryland, Ohio,
                  Oklahoma, and South Carolina) had difficulty identifying their
                  Medicaid-expansion populations. Also, there were children selected in
                  the sample from three additional States (California, New York, and
                  Nebraska) who were later determined to not fit our criteria.
                                                                Reported
                                                                            Expansion       Percent of
                                               State           Expansion
                                                                             Sample          Sample
                                                               Population
                                              AK                 12,217         5              1.40
                                              CA                 50,965        21              5.88
                                              DC                  3,265         4              1.12
                                              FL                  1,422         2              0.56
                                              HI                  9,447         1              0.28
                                              IA                  9,345         4              1.12
                                              ID                 10,656         6              1.68
                                              IL                 48,528        21              5.88
                                              IN                 46,103        25              7.00
                                              KY*                30,010         2              0.56
                                              LA                 86,593        34              9.52
                                              MA                 40,229        18              5.04
                                              MD                 103,095       26             7.28
                                              ME                  7,818         7              1.96
                                              MN                    15          0              0.00
                                              MO                 82,841        36             10.08
                                              ND                  1,121         0              0.00
                                              NE                 22,101        13              3.64
                                              NH                   162          0              0.00
                                              NJ*                 4,738         0              0.00
                                              NM                 10,377         6              1.68
                                              NY                 66,882        29              8.12
                                              OH                 113,824       32             8.96
                                              OK                 49,415        22              6.16
                                              RI                  8,864         7              1.96
                                              SC                 45,008        16              4.48
                                              SD                  7,359         2              0.56
                                              VA                 20,758         8              2.24
                                              WI                 35,427        10              2.80
                                              Total              928,585       357           100.00*
                                          *Actual percentage total is 99.96 due to rounding. 

                                          Based on information received after the sample was 

                                          selected, the population for Kentucky was revised to 30,872 

                                          and the population for New Jersey was revised to 33,336. 





OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                                     19
                                                                       Report Template Version = 01-13-05




Δ   A P P E N D I X                                ~           C   


     Worksheets Used in Case Review

                  The following pages show examples of the case review and calculation
                  sheets we used in reviewing the sampled cases. The example is not
                  meant to represent any specific State or case, but rather to illustrate the
                  process used in assessing proper eligibility determinations.




OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                          20
                                                                     Report Template Version = 01-13-05




  A   P   P E N D       I X ~           C            





Source: OIG worksheet used in case review.




      OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  21
                                                                                        Report Template Version = 01-13-05




Δ     A P P E N D I X                                 ~           D

      Children With Family Income Below States’ Eligibility Guidelines for
      Medicaid Expansion
                                                                      Federal Poverty
                                              Age Range                                     Income Range
                                                                       Level Range*
               State Guidelines                  6 - 19                100% - 133%       $2,021.67 - $2,688.82
    Case 1          Family                      Child is 9
                                                                           69%                 $1,393.46
              (6 members total)                 years old

             The caseworker multiplied one parent’s daily wage by 5 days to calculate
             weekly wages, but the parent only worked 2 days per week.

               State Guidelines                   0-5                  133% - 200%       $1,664.72 - $2,503.33
    Case 2          Family                      Child is 5
                                                                           16%                  $209.00
              (3 members total)                 years old

             The caseworker incorrectly included a stepfather and his income in the eligibility
             determination. According to State program guidelines, the stepfather should
             not have been included in the family for the purpose of determining the child's
             eligibility.

               State Guidelines                   1-5                  133% - 185%       $1,664.72 - $2,315.58
    Case 3          Family                      Child is 2
                                                                           72%                  $906.00
              (3 members total)                 years old

             When the caseworker input one parent’s income in the State eligibility system,
             the caseworker incorrectly specified that it was paid weekly instead of bi
             weekly. Therefore, the system calculated the family’s monthly income at twice
             the rate it should have been, making the child appear to be eligible under
             Medicaid-expansion criteria.

              State Guidelines                  0 - 18                 100% - 200%       $2,899.16 - $5,798.33
    Case 4         Family                      Child is 15
                                                                           88%                 $2,574.28
              (7 members total)                years old

             The caseworker used an incorrect income input screen when entering this case
             into the State’s eligibility system, resulting in the child being assigned an
             eligibilty code that indicated eligibility under Medicaid-expansion criteria.

               State Guidelines                 6 - 18                 100% - 133%       $1,533.33 - $2,039.33
    Case 5          Family                     Child is 15
                                                                            0%                     $0
              (4 members total)                years old
               State Guidelines                 6 - 19                 100% - 185%       $1,765.00 - $3,265.25
    Case 6          Family                     Child is 9
                                                                           53%                  $950.00
              (5 members total)                years old

             In cases 5 and 6, the caseworkers redetermined the children’s eligibility without
             considering the changes in the families’ incomes that had occurred. When the
             changes in income were brought to the State’s attention, the children were
             discovered to be eligible for traditional Medicaid.


OEI-07-03-00221      S C H I P M E D I C A I D E X PA N S I O N                                                        22
                                                                                    Report Template Version = 01-13-05




A   P   P E N D         I X ~            D            



                  State Guidelines                  6 - 19            100% - 185%    $1,271.67 - $2,352.58
     Case 7            Family                      Child is 15
                                                                         81%                 $1,034
                 (3 members total)                 years old

                The caseworker recorded $1,000 in earned income for one parent who had no
                income, and incorrectly recorded the other parent’s income as being from self-
                employment. The caseworker also incorrectly deducted two $120 earned
                income disregards. (State program guidelines state that the $120 disregard is
                not deducted from self-employment income.)

                  State Guidelines                    1-6             133% - 185%    $1,323.35 - $1,840.75
     Case 8            Family                       Child is 3
                                                                         123%              $1,222.00
                 (2 members total)                  years old

                The caseworker did not record the family’s income correctly in the State’s
                eligibility system, resulting in the system assigning a code to the child indicating
                eligibility under Medicaid-expansion criteria.

                  State Guidelines                  6 - 19            100% - 150%    $1,533.33 - $2,300.00
     Case 9            Family                      Child is 7
                                                                         21%                $270.00
                 (3 members total)                 years old
                  State Guidelines                  6 - 19            100% - 150%    $1,010.00 - $1,515.00
     Case 10           Family                      Child is 10
                                                                         97%                $980.00
                 (2 members total)                 years old

                In cases 9 and 10, the State explained that a problem occurred when they
                attempted to implement a new eligibility system. Some of the codes indicating
                eligibilty for different programs were transferred incorrectly from the old system
                to the new one, resulting in children being classified incorrectly.

                  State Guidelines                   6 - 19           100% - 150%    $1,533.33 - $2,300.00
     Case 11           Family                      Child is 13
                                                                         89%               $1,368.20
                 (4 members total)                 years old
                  State Guidelines                   6 - 19           100% - 150%    $1,533.33 - $2,300.00
     Case 12           Family                      Child is 18
                                                                          0%                   $0
                 (4 members total)                 years old
                  State Guidelines                   6 - 19           100% - 150%    $1,533.33 - $2,300.00
     Case 13           Family                      Child is 17
                                                                          7%                 $53.75
                  (1 member total)                 years old
                  State Guidelines                    1-5             0% - 133%†         $0 - $1,691.32
     Case 14           Family                      Child is 1
                                                                         45%                $572.00
                 (3 members total)                  year old
                  State Guidelines                   6 - 18           0% - 100%†          $0 - $748.33
     Case 15           Family                      Child is 11
                                                                         56%                $422.00
                  (1 member total)                 years old




    OEI-07-03-00221      S C H I P M E D I C A I D E X PA N S I O N                                                23
                                                                                       Report Template Version = 01-13-05




A    P   P E N D           I X ~            D            



                    State Guidelines                   6 - 18            100% - 200%    $1,508.00 - $3,016.67
     Case 16             Family                       Child is 13
                                                                            93%               $1,426.00
                   (4 members total)                  years old
                    State Guidelines                   6 - 18            100% - 200%    $1,795.00 - $3,590.00
     Case 17             Family                       Child is 16
                                                                            86%               $1,520.00
                   (5 members total)                  years old
                    State Guidelines                   6 - 18            100% - 133%    $1,533.33 - $2,039.33
     Case 18            Family                         Child is 7
                                                                            72%               $1,098.94
                   (4 members total)                   years old

                 For cases 11 through 18, although the States confirmed that the children were
                 eligible for traditional Medicaid, they did not provide explanations of how the
                 errors occurred.

                    State Guidelines                     1-5             133% - 150%    $2,347.45 - $2,647.50
     Case 19             Family                        Child is 5
                                                                            107%              $1,887.00
                   (5 members total)                   years old
                    State Guidelines                    6 - 18           100% - 150%    $1,271.67 - $1,907.50
     Case 20             Family                        Child is 7
                                                                            59%                $761.40
                   (3 members total)                   years old
                    State Guidelines                    6 - 17           114% - 150%    $1,719.12 - $2,262.50
     Case 21             Family                        Child is 8
                                                                             0%                 $0.00
                   (4 members total)                   years old

                 Despite our requests for clarification on cases 19 through 21, the States were
                 unable to provide proof of income. According to OIG analysis of documented
                 information in these cases, the children were not eligible under Medicaid-
                 expansion criteria.
    Source: OIG analysis of case-file documentation for sampled SCHIP cases.

    *The FPL changes each fiscal year and is adjusted for family size. Thus, 100% FPL in 2002 is different from
    100% FPL in 2003, and 100% FPL for a family of three is different from 100% FPL for a family of four.
    †The income range for both Medicaid and Medicaid expansion in this State are the same for each age group;
    children are identified as Medicaid expansion if they do not meet asset requirements for Medicaid. These two
    children were classified as Medicaid expansion erroneously, because they did meet Medicaid asset
    requirements.




    OEI-07-03-00221         S C H I P M E D I C A I D E X PA N S I O N                                                24
                                                                                       Report Template Version = 01-13-05




Δ     A P P E N D I X ~ E


      Children With Family Income Above States’ Eligibility Guidelines for
      Medicaid Expansion

                                                                     Federal Poverty
                                                Age Range                                  Income Range
                                                                      Level Range*
                 State Criteria                     6 - 18            100% - 200%      $1,251.67 - $2,503.33
  Case 1            Family                         Child is 6
                                                                         345%                 $4,325.00
               (3 members total)                   years old

             The caseworker mistakenly counted the family’s income for one month over a
             two month period, making it appear that the family’s income was half of what it
             actually was.

                 State Criteria                     0-5               133% - 200%      $1,664.72 - $2,503.33
  Case 2            Family                         Child is 1
                                                                         222%                 $2,784.00
               (3 members total)                   year old

             The county Medicaid office responsible for this case explained that its eligibility
             system malfunctioned, assigning a code to this case that indicated eligibility
             under Medicaid-expansion criteria incorrectly. The malfunction was not
             discovered until the fall of 2003.

                 State Criteria                    6 - 18             100% - 200%       $995.00 - $1,990.00
  Case 3            Family                        Child is 15
                                                                         255%                 $2,545.00
               (2 members total)                  years old

             The documentation the State provided showed that the family had too much
             income to qualify for Medicaid expansion. No further information was received
             for this case from the State.

Source: OIG analysis of case-file documentation for sampled Medicaid-expansion cases.


*The FPL changes each fiscal year and is adjusted for family size. Thus, 100% FPL in 2002 is different from
100% FPL in 2003, and 100% FPL for a family of three is different from 100% FPL for a family of four.




OEI-07-03-00221         S C H I P M E D I C A I D E X PA N S I O N                                                    25
                                                                       Report Template Version = 01-13-05




Δ      A P P E N D I X                                  ~      F   





OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                          26
                                                                Report Template Version = 01-13-05




A P P E N D        I X ~ F 





 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  27
                                                                Report Template Version = 01-13-05




A P P E N D        I X ~ F 





 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  28
                                                                Report Template Version = 01-13-05




A P P E N D        I X ~ F 





 OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                  29
                                                                             Report Template Version = 01-13-05




Δ   A C K N O W L E D G M E N T S                                            


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Mike Craig, Project Leader
                  Dennis Tharp, Program Analyst

                  Elander Phillips, Program Analyst

                  Michala Walker, Program Analyst

                  Brian Whitley, Program Analyst

                  Linda Hall, Program Specialist

                  Elise Stein, Director, Public Health and Human Services

                  Barbara Tedesco, Mathematical Statistician



                                                               In Memoriam
                  Mike Craig (1973 – 2004) served as Project Leader for this inspection.
                  His leadership provided encouragement and served as a source of
                  direction for his team. His untimely death occurred just prior to the
                  completion of this inspection.




OEI-07-03-00221   S C H I P M E D I C A I D E X PA N S I O N                                                30
